App.la
ORDER OF THE SUPREME COURT OF
PENNSYLVANIA DENYING PETITION
FOR ALLOWANCE OF APPEAL
(AUGUST 10, 2020)
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
LAURA PANKOE
Respondent,
v.
RYAN PANKOE,
Petitioner.
No. 54 MAL 2020
Petition for Allowance of Appeal
from the Order of the Superior Court
PER CURIAM
AND NOW, this 10th day of August, 2020, the
Petition for Allowance of Appeal is DENIED.
A True Copy, Elizabeth E. Zisk
As of 08/10/2020
Attest: /s/ Elizabeth E. Zisk
Chief Clerk
Supreme Court of Pennsylvania

App.2a

OPINION OF THE
SUPERIOR COURT OF PENNSYLVANIA
(OCTOBER 29, 2019)
IN THE SUPERIOR COURT OF PENNSYLVANIA
LAURA PANKOE,
Appellee,
v.
RYAN PANKOE,
Appellant.
No. 1041 EDA 2019
2019 PA Super 327
Appeal from the Decree Entered March 25, 2019
in the Court of Common Pleas of Lehigh County
Civil Division at No(s): 2017-FC-1286
Before: BOWES, J., SHOGAN, J.,
and STRASSBURGER, J.*
OPINION BY STRASSBURGER, J.:
Ryan Pankoe (Husband) pro se appeals from the
March 25, 2019 divorce decree entered in the Lehigh
County Court of Common Pleas. Upon review, we
affirm.
* Retired Senior Judge assigned to the Superior Court.

App.3a

Husband and Laura Pankoe (Wife) were married
on October 18, 2009, in Lehigh County, Pennsylvania,
and are the parents to two minor children. On Sep­
tember 27, 2017, Wife filed a complaint for divorce (the
Complaint), which included a count for equitable
distribution. Complaint, 9/27/2017. In the Complaint,
Wife averred the parties separated on November 8,
2016, and had been living apart since that date. Id. at
2 (unnumbered). Additionally, Wife asserted that the
marriage was irretrievably broken. Id. Thereafter,
Husband was served a copy of the Complaint, and he
subsequently filed an answer. Therein, Husband
requested the trial court dismiss the Complaint,
asserting the marriage was “not irretrievabl[y] broken
nor ha[d] the parties lived separate and apart for one
year since the filling of the [ ] Complaint.” Answer to
Complaint, 3/1/2018, at 2 (unnumbered).
On November 27, 2018, a master’s hearing was
held before John Roberts, III, Esquire (Master). Both
parties testified at the hearing. As summarized by the
trial court:
[Wife] testified that she believed her marriage
to [Husband] is irretrievably broken because:
[Husband] is emotionally and verbally
abusive and that’s not going to change. He
is narcissistic. We tried marriage counsel­
ing. And it’s clear to me that I’m not going
to get through to him.
And his personality is the way it is. And
I’m not going to keep putting myself in
the situation I’ve been in. I’m done.
[Wife] testified that she had “no doubt what­
soever” that she wanted a divorce. [Wife]

App.4a
further testified that she felt [Husband] was
emotionally, verbally, and sexually abusive
during the marriage. [Wife] also testified
that [Husband] did not acknowledge her
opinions and feelings during the marriage.
[Wife] further testified that based on her
religious beliefs, she believed a divorce was
warranted. Additionally, [Wife] testified that
she is not pursuing any economic claims
against [Husband], [Wife] testified that she
did not have an affair during the marriage.
■ [Husband] testified extensively about his
religious beliefs and his belief that divorce is
not appropriate for the parties. [Husband]
testified that he did not believe the parties
had “biblical grounds for divorce or infidelity
or an unbelieving spouse walk away.”
[Husband] further argued that he and [Wife]
entered into a Christian marriage contract,
which Pennsylvania cannot invalidate. [Hus­
band] argued that Pennsylvania recognizes
that marriage is a religious contract and that
Pennsylvania gives deference to the religious
aspects of marriage contracts. [Husband]
contends that the legislature does not have
the authority to regulate marriage and
divorce, especially no-fault divorce, because
there is no compelling state interest.
[Husband] further testified that his “firmly
held religious beliefs prevented [him] from
starting a family under a marital contract
that includes an exit plan option of unilateral
no-fault divorce.” [Husband] also argued that
Pennsylvania courts do not have jurisdiction

App.5a
over the Christian marriage contract between
him and [Wife] and that [23 Pa. C.S. § 3301
(d)[(section 3301(d))1] fosters excessive gov­
ernmental entanglement with the free exer­
cise of religion. [Husband] further testified
that he believed his church council needs to
1 Section 3301(d) of the divorce code sets forth the requirements
necessary to obtain a unilateral no-fault divorce. Specifically,
section 3301(d) provides:
(l) The court may grant a divorce where a complaint has
been filed alleging that the marriage is irretrievably broken
and an affidavit has been filed alleging that the parties
have lived separate and apart for a period of at least one
year and that the marriage is irretrievably broken and the
defendant either:
(1)

Does not deny the allegations set forth in the affida­
vit.

(ii)

Denies one or more of the allegations set forth in the
affidavit but, after notice and hearing, the court
determines that the parties have lived separate and
apart for a period of at least one yearhl and that the
marriage is irretrievably broken.

(2) If a hearing has been held pursuant to paragraph (l)(ii)
and the court determines that there is a reasonable
prospect of reconciliation, then the court shall continue the
matter for a period not less than 90 days nor more than 120
days unless the parties agree to a period in excess of 120
days. During this period, the court shall require counseling
as provided in section 3302 (relating to counseling). If the
parties have not reconciled at the expiration of the time
period and one party states under oath that the marriage
is irretrievably broken, the court shall determine whether
the marriage is irretrievably broken. If the court deter­
mines that the marriage is irretrievably broken, the court
shall grant the divorce. Otherwise, the court shall deny the
divorce.
Section 330l(d)(l-2).

App.6a

determine if there is sufficient estrangement
between the parties, and issue some type of
edict stating that the marriage is beyond
repair.
At the conclusion of [Husband’s] testimony,
[Wife] stated that the statements made by
[Husband] were “a huge example of abuse.”
[Wife] testified that [Husband’s] promises to
change did not sway her and that she still
wants a divorce.
Trial Court’s Memorandum Opinion, 3/25/2019, at 3-5
(citations omitted). On December 6, 2018, the Master
filed a report, recommending the trial court “grant the
divorce expeditiously.” Id. at 2.
On December 24, 2018, [Husband] filed excep­
tions to the [Master’s report]. On December 28,
2018, [Husband] filed a statement “challeng­
ing subject matter jurisdiction amended.” On
January 7, 2019, [Husband] filed a notice of
challenging constitutionality to Attorney
General. On January 18, 2019, [Husband] filed
a motion for summary judgment and brief in
support. On February 15, 2019, [Wife] filed a
brief contra to [Husband’s] motion for sum­
mary judgment.
On February 22, 2019, [Husband] filed a reply
brief to [Wife’s] brief opposing motion for
summary judgment. On February 27,
2019, th[e trial c]ourt held argument on the
exceptions to the [Master’s report] and the
motion for summary judgment[.]
Id. at 2-3 (unnecessary capitalization omitted).

App.7a

On March 25, 2019, the trial court issued a memo­
randum opinion in which it, inter alia, found Wife
established grounds for divorce under section 3301(d)
and issued a divorce decree that same day.2 See Trial
Court’s Memorandum Opinion, 3/25/2019. This timelyfiled appeal followed.3
“Our standard of review in divorce actions is well
settled. It is the responsibility of this court to make a
de novo evaluation of the record of the proceedings
and to decide independently of the . . . lower court
whether a legal cause of action in divorce exists.” Rich
v. Acrivos, 815 A.2d 1106, 1107 (Pa. Super. 2003)
(citation, brackets and quotation marks omitted).
On appeal, Husband is not disputing that, under
section 3301(d), Wife has met her burden in proving
that a legal cause of action in divorce exists. See
Husband’s Brief at 27 (“[H]usband is not disputing the
presence of the jurisdictional facts as defined by the
statuteU”). See also Husband’s Reply Brief at 10
(“[Hjusband does not dispute the fulfillment of the
statutory elements[.]”). Instead, Husband is arguing
2 Although not pertinent to the disposition of this appeal, in its
memorandum opinion, the trial court also denied Husband’s
motion for summary judgment, and granted in part, and denied
in part, Husband’s exceptions to the Master’s report. Specifically,
the trial court granted two of Husband’s exceptions, which cor­
rected minor errors made in the Master’s report’s recitation of
facts. See Trial Court’s Memorandum Opinion, 3/25/2019.
3 Husband complied with the trial court’s request to file a concise
statement and in response, the court submitted an order stating
it believes its March 25, 2019 memorandum opinion sufficiently
addressed all the issues raised by Husband and thus, the court
would rely on that opinion for the purposes of this appeal. See
Order, 5/22/2019.

App.8a

that section 3301(d) is unconstitutional because it
violates the Establishment Clause4 and Husband’s
due process rights. Id. at 11-12.
When an appellant challenges the constitu­
tionality of a statute, he or she presents this
Court with a question of law. Our considera­
tion of questions of law is plenary.
Properly enacted legislation is presumed
constitutional. The burden of persuasion to
show constitutional infirmity rests heavily on
the appellant. Our Supreme Court instructs
this Court to pronounce a statute unconstitu­
tional only when we find that it clearly,
palpably and plainly violates the constitu­
tion.
Commonwealth v. Atwell, 785 A.2d 123, 125 (Pa. Super.
2001) (citations and quotation marks omitted).
As an initial matter, we note that the argument
section of Husband’s brief is difficult to follow and
incoherent at times. Nevertheless, we will attempt to
discern Husband’s specific grievances. Upon review of
his brief, it appears to this Court that Husband is
arguing that no-fault divorces are unconstitutional
because they are “hostile toward religious views [,]” as
they permit a party to seek a divorce based solely upon
his/her viewpoint that the marriage is irretrievably
broken, without “consideration of actionable fault.” Id.
at 17. Although not entirely clear, it appears Husband’s

4 “Congress shall make no law respecting an establishment of
religion!.]” U.S. Const, amend. I. The Establishment Clause was
incorporated to the states in Everson v. Bd. of Ed., 330 U.S. 1
(1947).

App.9a

belief system allows for divorce only after a finding of
wrongdoing. As such, because the trial court did not
find Husband committed “a legal infraction[,]” and
because Husband “fundamentally disagrees with the
premise that a marriage can be irretrievably broken [,]”
Husband contends that granting a divorce based solely
on Wife’s “viewpoint” or “ideas” as opposed to conduct,
is unconstitutional. Id. at 18. See also id. at 24 (“Sub­
jecting [Hlusband to [Wjife’s beliefs by forcing him
to incur the social, economic, religious and legal
consequences of divorce, against his will and in absence
of any legal violation, is equivalent to subjecting him
to live according to and in conformity with [Wjife’s
religion, however theistic or atheistic it may be. More
to the point, the Commonwealth of Pennsylvania has
sponsored [Wjife’s beliefs which conversely discrimi­
nates against [Hjusband’s beliefs and subjugates his
to an official State orthodoxy.”). Additionally, Husband
argues that the statutory requirements set forth in
section 3301(d), and more specifically the requirement
of filing an affidavit alleging the parties have lived
separately for a certain period of time, has made the
entry of a divorce decree a ministerial act, 5 which
Husband argues is likewise unconstitutional. Id. at
25-26. We find no merit to Husband’s claims.
This Court has extensively reviewed the evolution
of divorce law, as well as our legislature’s addition of
no-fault grounds for divorce in Pennsylvania.
When the legislature added the no-fault
grounds for divorce, it intended that the
5 A ministerial act is defined as “[a]n act performed without the
independent exercise of discretion or judgment.” Black’s Law
Dictionary (llth ed. 2019).

App.lOa

Divorce Code retain the traditional fault
grounds for divorce. The legislature expressly
stated its findings and intent, recognizing
that the family is the basic unit of society,
and that the protection and preservation of
the family is of paramount public concern. 23
Pa. C.S. § 3102(a). Acknowledging this, the
legislature pronounced the following as the
policy of the Commonwealth: to make the
legal dissolution of marriage effective for
dealing with the realities of matrimonial
experience; to encourage reconciliation and
settlement, especially where children are
involved; to give primary consideration to
the welfare of the family rather than the
vindication of private rights or the punish­
ment of matrimonial wrongs; to mitigate
harm to the parties and children; to seek the
causes of family disintegration and utilize
available resources; and to effectuate econo­
mic justice between parties.
The purpose of enacting no-fault divorce pro­
visions was to provide for the legal disso­
lution of a marriage in a manner which would
keep pace with contemporary social realities.
Our lawmakers were reluctant to legislate
divorce reform and, after twenty years of
debate, the 1980 Divorce Code was enacted.
The sanctity of marriage and the dominant
desire to preserve that union was embedded
in the theory of the prior Divorce Law; that
law remained virtually unchanged since first
enacted in 1785 and recodified in 1815. The
law acknowledged the strength of the family

App.lla

unit and the necessity of ensuring its pre­
servation. Too frequently, however, the appli­
cation of the law preserved the family unit in
form only, its consequential pain arguably
greater than the loss it sought to prevent.
Judge Spaeth’s dissenting opinion in Dukmen
v. Dukmen, [420 A.2d 667, 671 (Pa. Super.
1980)], is telling:
Perhaps the Divorce Law is flawed in not
making the decisive factor in a divorce
action the cessation of a loving relation­
ship between the parties. It is our func­
tion, however, to apply the law. Thus, this
court has consistently held that under the
Divorce Law, the inability to live together
does not constitute a ground for divorce.
[ ] Further, we have equally consistently
held “that where both parties are nearly
equally at fault, so that neither can clearly
be said to be the injured and innocent
spouse, the law will grant a divorce to
neither on the ground of indignities to the
person, but will leave them where they
put themselves.
The adoption of the 1980 Divorce Code, and
in particular the no-fault provision of irretrie­
vable breakdown, see [section] 3301(d), allowed
a dependent spouse to take advantage of the
economic protections of the law without
having to resort to seeking a divorce on
fault grounds. The legislature provided this
section with the economic benefits for good
reason: to avoid, where possible, a contested
divorce, the raw searing battle that some

App.l2a

commentators have likened to guerrilla
warfare.
Perlberger v. Perlberger, 626 A.2d 1186, 1193-94 (Pa.
Super. 1993) (quotation marks and some citations
omitted).
Contrary to Husband’s beliefs, trial courts are not
entitled to grant divorces based solely on an individ­
ual’s “viewpoint.” Nor is the act of granting a no-fault
divorce purely ministerial. As set forth supra, section
3301(d) provides for a no-fault divorce only after a
party files an affidavit alleging the parties have lived
separate and apart for the requisite amount of time and
affirms the marriage is irretrievably broken. If the
non-filing party objects, the trial court is then required
to determine whether: (l) the parties have been living
separate and apart for the prescribed amount of time;
and (2) the marriage is irretrievably broken.
Here, Husband had the opportunity to object to
Wife’s request for a divorce, and did so numerous
times, including by filing an answer to the Complaint,
disputing Wife’s contention that the marriage was
irretrievably broken. Similarly, at the Master’s hearing,
Husband was entitled to present evidence in support
of his contention that the divorce should not be
granted. However, despite Husband’s efforts, the
Master found, and the trial court agreed, that the
marriage of Husband and Wife was indeed irretrievably
broken. The trial court did not, as Husband suggests,
simply accept Wife’s “viewpoint.” Instead, it reviewed
Wife’s testimony and the Master’s recommendations,
and determined that Wife met her burden of proving
the marriage was irretrievably broken. Such a judicial
determination, necessary prior to the entry of a divorce

App.l3a

decree, solidifies that section 3301(d), and the require­
ments set forth therein, are not strictly ministerial.
We are cognizant that the trial court did not
attribute any “fault” or wrong-doing to either party.
Nonetheless, the trial court found that Wife’s position
that “there was no possibility that the marriage can
be repaired” and Husband’s steadfast disagreement
with her position was “precisely th[e] breakdown in
communication that satisfies the definition of
‘irretrievable breakdown.’ Reconciliation cannot happen
without the effort .of two willing participants.” Trial
Court’s Memorandum Opinion, 3/25/2019, at 9. Indeed,
no-fault divorce was created in contemplation of situ­
ations just like this, i.e., to provide a way to end a
marriage for a party, or two consenting parties, that
does not meet the requirements necessary for the
entry of a “fault divorce.” Husband has failed to
convince this Court that the addition of no-fault
divorce nearly 40 years ago is an infringement on his
constitutional rights. No relief is due.
Lastly, to the extent Husband is arguing that
section 3301(d) is unconstitutional because it is
incongruent with his religious beliefs, this Court has
previously addressed a similar argument in Wikoski
v. Wikoski, 513 A.3d 986 (Pa. Super. 1986). In Wikoski,
the appellant set forth a constitutional challenge to
the no-fault section of the divorce code, averring “that
the grant of a divorce infringe [d] on his religious
beliefs as a Roman Catholic, in that the faith opposes
divorce.” Id. This Court disagreed, finding
[t]he state’s interests in regulating marriage
and divorce are clearly paramount. That
regulation is inconsistent with the recognition
of a unilateral right of a party to remove

App.l4a

himself from its purview as a matter of
conscience. The state has the power, properly
exercised within constitutional limits guaran­
teeing freedom of religion, to grant divorces.
Thus, whether granting appellee her divorce
is viewed as not infringing upon appellant’s
freedom of religion [ ] or as interfering with
the practice of his religion, [ ] the result
reached here would be the same. To what­
ever extent the issuance of a divorce decree
interferes with the practice of appellant’s
religion, it does not violate an individual’s
right to freedom of conscience.
Id. at 989. In concluding as such, this Court relied on
case law from our sister state, which aptly addressed
the separation between a civil contract of marriage
and an ecclesiastic commitment.
Appellant’s complaint that her constitutional
right for the free exercise of religion is being
violated is unfounded. The action of the trial
court only dissolved the civil contract of
marriage between the parties. No attempt
was made to dissolve it ecclesiastically.
Therefore, there is no infringement upon her
constitutional right of freedom of religion. She
still has her constitutional prerogative to
believe that in the eyes of God, she and her
estranged husband are ecclesiastically wedded
as one, and may continue to exercise that
freedom of religion according to her belief
and conscience. Any transgression by her
husband of their ecclesiastical vows, is, in
this instance, outside the jurisdiction of the
court.

App.l5a

Id. at 987, quoting Williams v. Williams, 543 P.2d 1401,
1403 (Oklahoma 1975).
In light of the foregoing, not only do we disagree
with Husband’s interpretation of section 3301(d), we
find Husband has failed to meet his hefty burden of
proving it to be constitutionally infirm. Thus, Husband
is not entitled to relief from this Court.
Decree Affirmed.

Judgment Entered.
Isl Joseph D. Seletvn. Esq
Prothonotary
Date: 10/29/19

App.l6a
ORDER OF THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
(MAY 23, 2019)
IN THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
CIVIL DIVISION
LAURA PANKOE,
Plaintiff,
v.
RYAN PANKOE,
Defendant.
No. 2017-FC-1286
DIVORCE
Before: The Hon. Michele A. VARRICCHIO, J.
AND NOW, this 22nd day of May, 2019, the
undersigned enters the following opinion pursuant to
Pennsylvania Rule of Appellate Procedure 1925(a):
On March 25, 2019, this Court entered a Divorce
Decree, Order, and Memorandum Opinion on the
Complaint in Divorce filed by Plaintiff, Laura Pankoe,
on September 27, 2017, the Exceptions to the Report
of the Master in Divorce filed by Defendant, Ryan
Pankoe, on December 24, 2018, the Motion for Sum-

App.l7a

mary Judgment and Briefin Support filed by Defend­
ant on January 18, 2019, and the responses thereto. A
hearing on the Exceptions and the Motion for Sum­
mary Judgment was held on February 27, 2019. By
Divorce Decree, Order, and Memorandum Opinion
filed March 25, 2019, Defendant’s Exceptions were
overruled in part and sustained in part, Defendant’s
Motion for Summary Judgment was denied, and the
parties were divorced from the bonds of matrimony.
On April 2, 2019, Defendant tiled a Notice of
Appeal to the Superior Court of Pennsylvania from
this Court’s Order entered March 25, 2019 at Docket
Number 1041 FDA 2019. Also, on April 2, 2019,
Defendant tiled a request for transcript for the pro­
ceedings held on February 27, 2019. By Order dated
April 4, 2019, this Court dismissed Defendant’s request
for transcript because the requested transcript was pre­
viously filed on March 13, 2019.1 By separate Order
dated April 4, 2019, this Court directed Defendant to
file his Concise Statement of Matters Complained of
on Appeal within twenty-one days.
On April 19, 2019, Defendant filed a Motion to
Ammend [sic] Notice of Appeal to ensure that the
Order, Divorce Decree, and Memorandum Opinion all
filed March 25, 2019 were included in his appeal. On
April 24, 2019, Defendant timely filed his Concise
Statement of Matters Complained of on Appeal. By

1 On March 5, 2019, Defendant requested the transcript for the
February 27, 2019 argument. By Order dated March 8, 2019, this
Court directed Official Court Reporter, Wendy Crowley, to
produce certify and file the transcript. On March 13, 2019, Wendy
Crowley filed the transcript of the February 27, 2019 argument.

App.l8a

Order dated May 2, 2019, this Court granted Defend­
ant’s Motion to Ammend [sic] Notice of Appeal.
In his Concise Statement of Matters Complained
of on Appeal, Defendant raises twelve allegations of
error, which are reproduced here verbatim:
1.

In accordance with Rule 1925 (4)(vi), I am
hereby stating that I cannot readily discern
the basis for the judge’s decision of divorce
but, tried to foresee errors by preserving the
herein mentioned issues on record. The trial
court’s ruling is vague and not discernable
from the record. The trial court’s reasoning
is neither decisive nor authoritatively con­
clusive. Additionally, none of the reasons
presented by the trial court were included in
the plaintiffs complaint for divorce (plead­
ings). As such, the defendant was never
given fair notice or opportunity to prepare
a defense.

2.

The nature of appeal involves a facial con­
stitutional/jurisdictional challenge against
Pennsylvania statute 23 Pa. C.S.A. § 3301(d)
of the Divorce Code, as this was cited by the
plaintiff/appellee as the basis for the lawsuit.
I, the defendant, appeal the divorce decree,
and order to the extent that it relates to the
decree (filed March 25, 2019). Commencing
this action, the trial court assumed that the
parties were legally married. However, there
is no evidence that demonstrates this reality
or even that this was a legal proceeding since
the trial court did not relay on any legal
authority for the granting of divorce.

App.l9a

3.

To the extent the court’s findings establish
the statutory elements of 23 Pa. C.S.A. § 3301
(d) by implication, the statute is unconstitu­
tional. The Plaintiff is required by law to (l)
file a complaint “alleging that the marriage
is irretrievably broken,” and (2) to file an
affidavit “alleging that the parties have
lived separate and apart for a period of at
least two years and that the marriage is
irretrievably broken.” Because these condi­
tions are precisely prescribed and legally
imposed, the trial court’s finding of these
conditions relies on legislative mandate
rather than on the unique facts of an inde­
pendent case. As such, the action for divorce
is self-executing and cannot be contested.
The statute itself eliminates the right of
defense. Eliminating the right of defense does
several things:
a.

It violates due process of law as defined
by the fourteenth amendment by elimi­
nating the adversarial system and con­
demning the defendant to unavoidable
deprivation of personal, individual and
fundamental rights;

b.

It violates Penn. Art. I, Sec. 17 by grant­
ing the plaintiff/appellee an exclusive
privilege and immunity insofar as guar­
anteeing a particular legal outcome that
is desirable only to those seeking marital
dissolution and family breakdown;

c.

It violates Penn Art. Ill, Sec. 32 by
creating a closed-classification by which

App.20a

defendants are unable to obtain a favor­
able legal outcome except to alter their
classifying trait. Conversely, plaintiffs
as members of a privileged class are
empowered to dictate the outcome of
public deliberation;

4.

d.

It violates the establishment clause by
endorsing a state-sponsored orthodoxy
based on a set of ideological and
politically-motivated beliefs rather than
on objective standards of action, conduct
and behavior:

e.

It is contrary to public policy because it
relies on individual will and deliberation
rather than on public will and delibera­
tion;

f.

It violates due process of law by convert­
ing judicial proceeding into ministerial
proceedings, fundamentally altering the
organization of the courts and divesting
the judiciary’s competency by precluding
the exercise of discretion and the adher­
ence to a rule of law;

To the extent that individual judges may
determine for themselves whether a marriage
is irretrievably broken based on personal
views and prejudices, this runs contrary to
Supreme Court precedent which establishes
that the rights under marriage are to be
determined by the will of the sovereign,
based on principles of public policy, as evi­
denced by law. The trial judge was unable to
identify the objectively defined legal rights

App.21a

established by the marriage and the relevant
breach that justifies the dissolution of the
legal bonds of matrimony. This then is
nothing less than judicial usurpation of the
public will and of the sovereignty of the
people of the Commonwealth of Pennsylvania.
5.

The Trial Court’s findings of fact are incon­
clusive and its conclusions of law are non­
existent. The parties could not possibly be
divorced form the bonds of matrimony unless
the validity of the marriage was evidenced by
law. To the extent that dissolution proceed­
ings are statutory actions confined within
the framework of special limited jurisdiction,
the trial court failed to adhere strictly and
exclusively to the powers as are expressly
conferred upon it by the statute. Despite the
application of equitable standards in a
dissolution proceeding, the granting of divorce
remains a statutory action at law.

6.

The statutory cause of action does not regulate
emotional, verbal or sexual abuse. Had the
State Legislature wanted to regulate these
abuses, it would have done so by enacting a
statutory cause of action forbidding this type
of conduct. Instead, “no-fault” precludes the
trial court from consideration misconduct as
the basis for granting a divorce. Citations from
N.T., 11/27/18, at 70:10-21 were improperly
interpreted by the trial court, but irrespective
of that error, it was improper for the trial
court to consider abuse as legal grounds for
divorce. The “no-fault” system does not
prescribe a moral standard for divorce. As

App.22a

such, the trial judge erred by imposing her
own moral dogma when this is completely
absent in the law. Furthermore, the trial
court never found these allegations to be true
as it merely references what the plaintiff
said, and likely what the plaintiffs counsel
instructed her to say.
7.

To the extent that the action of divorce was
based on the parties’ beliefs, the trial court
favored the plaintiffs religious beliefs over
the defendant’s religious beliefs. Consequent­
ly, the trial court endorsed a particular form
of religion and set of beliefs in violation of the
Establishment Clause.

8.

Wikoski v. Wikoski was correct in making
the distinction between beliefs and actions;
between the absolute prohibition on govern­
ment’s regulation of conscience/belief and the
qualified prohibition on government’s police
powers to regulate religiously motivated con­
duct. While the State may regulate behavior,
it may not regulate mere belief. Wikoski v.
Wikoski ultimately erred in its conclusion
because it failed to recognize that “no-fault”
laws intend not to regulate behavior and to
define conduct as proper or improper. Because
conduct is not to be considered under “no­
fault,” the only consideration, if there is any
consideration at all, is the subjective belief/
opinion that the marriage is irretrievable.
This is forbidden by the Establishment
Clause.

App.23a

9.

To the extent that Judge Michele A. Varricchio relied solely on the master’s recom­
mendation, Esquire John Roberts admits that
he was inflexibly compelled by law “to grant
a divorce under the divorce code” and that he
“[had] to recommend it.” (Master’s Hearing
pg. 72-73). He further stated that he was
unable and unqualified to answer constitu­
tional questions of law and that the matter
must be heard by a judge that will “listen to
something that is pretty interesting and
complicated” hut the court never commenced
a judicial hearing. Furthermore, John E.
Roberts III, Esquire, Master in Divorce, is not
a judicial officer, and cannot adjudicate a
question of law on behalf of the Common­
wealth of Pennsylvania.

10. 203 Pa. C.S.A. § 3301(d) cannot be presumed
constitutional as the trial court failed to apply
strict judicial scrutiny insofar as determining
whether the statute serves a compelling
state interest; whether the statute is narrowly
tailored to effectuate the compelling state
interest; and whether the statute is the least
restrictive means for achieving the compel­
ling state interest. Nor did Wikowsi v. Wikowsi
apply strict judicial scrutiny, for if it had, it
would have identified these elements. The
Commonwealth of Pennsylvania has yet to
meet its burden of proof and cannot presume
the State statute to be constitutional as it
directly and substantially interferes with
fundamental rights.

App.24a

11. The trial court was violative of Defendant’s
right to a fair trial by (l) scheduling the
hearing of Exceptions to the Master’s Report
and the Motion for Summary Judgement
concurrently; (2) precluding Pro-Se Defendant
presentation of supporting arguments to
exceptions one two, and four, whether by
allotting insufficient time for both matters,
or at the will of the trial judge to the extent
she closed arguments to rely solely on the
exceptions filed without supporting argument;
and (3) whereby Defendant was discriminated
against being precluded the right to counsel,
corroborated by John Roberts III, Esquire,
Master in Divorce and Stacy Morane, Esquire,
opposing counsel.
12. The trial court erred issuing a decree that
denies all raised claims for credit or reim­
bursement, indemnifying and holding harm­
less the other party from paying those debts,
and ordering Defendant to waive his right to
make claims against pre-marital assets allo­
cated prior to the March 25, 2019 order/
decree that were post-date-of-separation
transfers utilized by, for the benefit of, or are
in the possession of Plaintiff.
Def.’s Concise Stmt.,

1-12.

The Court wrote a thorough Memorandum Opinion
in support of the Order and Divorce Decree filed
March 25, 2019. The reasons for this Court’s decision
were set forth in the Order, Divorce Decree, and
Memorandum Opinion all filed March 25, 2019, and
we incorporate them herein, as if fully set forth. This
Court relies on those reasons and respectfully requests

App.25a
that its March 25, 2019 Order, Divorce Decree, and
Memorandum Opinion be affirmed.
BY THE COURT:
/s/ Michele A. Varricchio
Judge

App.26a
ORDER OF THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY GRANTING MOTION TO
AMMEND NOTICE OF APPEAL
(MAY 2, 2019)
IN THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
CIVIL DIVISION
LAURA PANKOE
Plaintiff,
v.
RYAN PANKOE,
Defendant.
No. 2017-FC-1286
DIVORCE
Before: The Hon. Michele A. VARRICCHIO, J.
AND NOW, this 2nd day of May, 2019, upon
consideration of the Motion to Ammend (sic) Notice of
Appeal Filed April 22, 2019;
IT IS HEREBY ORDERED that said Motion is
GRANTED.

App.27a
BY THE COURT:
Is/ Michele A. Varricchio
Judge

App.28a
ORDER OF THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
(APRIL 4, 2019)
IN THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
CIVIL DIVISION
LAURA PANKOE,
Plaintiff,
v.
RYAN PANKOE,
Defendant.
No. 2017-FC-1286
DIVORCE
Before: The Hon. Michele A. VARRICCHIO, J.
AND NOW, this 4th day of April, 2019, it
appearing that Defendant Ryan Pankoe has appealed
to the Superior Court from our March 25, 2019 Orderl
entered in the above-captioned matter, pursuant to the
provisions of Pa. R.A.P. No. 1925(b);
IT IS HEREBY ORDERED that Defendant, Ryan
Pankoe, is directed to tile of record and serve a copy
1 In addition to the Order filed March 25 2019, this Court filed a
Divorce Decree and Memorandum Opinion.

App.29a

on the trial judge pursuant to Pennsylvania Rule of
Appellate Procedure 1925(b)(1) within 21 days from the
entry of this Order, a Concise Statement of Matters
Complained of on Appeal (Statement). A failure to
comply with this direction may be considered by the
Superior Court as a waiver of all objections to the
Order, Rule, or other matters of which complained.
Any issue not properly included in the Statement
timely filed and served pursuant to subdivision (b)
shall he deemed waived.
IT IS FURTHER ORDERED that any response
may be filed to the Defendant’s Statement within 14
days of the filing of the Statement.
BY THE COURT:
Is/ Michele A. Varricchio
Judge

App.30a
MEMORANDUM OPINION OF THE COURT
OF COMMON PLEAS OF LEHIGH COUNTY
(MARCH 25, 2019)
IN THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
CIVIL DIVISION
LAURA PANKOE,
Plaintiff,
v.
RYAN PANKOE,
Defendant.
No. 2017-FC-1286
IN DIVORCE
Before: The Hon. Michele A. VARRICCHIO, J.
MICHELE A. VARRICCHIO, J
Before the Court are the Exceptions to the Report
of the Master in Divorce filed December 24, 2018 by
Defendant, Ryan Pankoe; the statement Challenging
Subject Matter Jurisdiction Amended filed December
28, 2018 by Defendant; the Notice of Challenging
Constitutionality to Attorney General filed January 7,
2019 by Defendant; and the Motion for Summary
Judgment and Briefin Support filed January 18, 2019
by Defendant, the response thereto filed February 15,

App.31a

2019 by Plaintiff, Laura Pankoe, and the reply thereto
filed February 22, 2019 by Defendant. Argument was
held on February 27, 2019 attended by Shannon P.
Smith, Esq., counsel for Plaintiff, Laura Pankoe, and
Defendant, Ryan Pankoe, pro se. The Court enters
this Memorandum Opinion in accordance with the
Divorce Decree and Order entered this same date.
I.

Procedural History

On September 27, 2017, Plaintiff, Laura Pankoe,
filed a Complaint in Divorce. Plaintiff contended that
the parties separated on November 8, 2016 and have
lived separate and apart since that date. See Pl.’s
Compl., If 12. Plaintiff further contended that the
marriage was irretrievably broken. Id., ad damnum
clause. Plaintiffs Complaint also included a count for
equitable distribution of the martial assets. Id., Ct. I.
On October 28, 2017, Defendant was served with a
copy of the Complaint. On March 1, 2018, Defendant,
through then counsel Melissa P. Rudas, Esq., filed an
Answer to Plaintiffs Complaint. On March 13, 2018,
Plaintiff filed an Inventory of the martial property.
By Order dated May 30, 2018, the Master in
Divorce, John Roberts, III, Esq., issued an order, which
was approved by the Honorable Douglas G. Reichley,
directing Defendant to provide Plaintiff with verified
Answers to Interrogatories and Responses to Requests
for Production of Documents. By Order dated October
18, 2018, Melissa P. Rudas, Esq. was granted permis­
sion to withdraw as Defendant’s counsel. Since that
time, Defendant has proceeded pro se in this matter.
On November 27, 2018, a hearing was held before
the Master in Divorce, John Roberts, III, Esq. On Decem­
ber 6, 2018, the Master in Divorce filed his Report and

App.32a

recommended that this Court grant the divorce exp­
editiously. On December 24, 2018, Defendant filed
Exceptions to the Report of the Master in Divorce. On
December 28, 2018, Defendant filed a statement
“Challenging Subject Matter Jurisdiction—Amended.”
On January 7, 2019, Defendant filed a Notice of
Challenging Constitutionality to Attorney General.
On January 18, 2019, Defendant filed a Motion for
Summary Judgment and Brief in Support. On Febru­
ary 15, 2019, Plaintiff filed a Brief Contra to Defend­
ant’s Motion for Summary Judgment. On February
22. 2019, Defendant filed a Reply Brief to Plaintiffs
Brief Opposing Motion for Summary Judgment. On
February 27, 2019, this Court held argument on the
Exceptions to the Report of the Master in Divorce and
the Motion for Summary Judgment, attended by
Shannon P. Smith, Esq., counsel for Plaintiff, Laura
Pankoe, and Defendant, Ryan Pankoe, pro se. The
matter is now ripe for disposition.

II. Facts
Plaintiff and Defendant married on October 18,
2009 in Lehigh County, Pennsylvania. At the time
Plaintiff filed her Complaint, both Plaintiff and
Defendant had lived in Lehigh County, Pennsylvania
for more than six continuous months. See Notes of
Testimony (N.T.), 11/27/18, at 17:13-17. Together the
parties arc the parents of two children. The parties
separated on November 8, 2016 and have lived separate
and apart since that date. *9eeN.T., 11/27/18, at 14:5-8,
19:9-11.
Plaintiff is an Office Manager. 6"eeN.T., 11/27/18,
at 14:16-18. Plaintiff was previously married; her first
marriage ended in divorce in 2008. N.T., 11/27/18, at

App.33a

15:2-10. At the November 27,2018 Hearing before the
Master in Divorce, Plaintiff testified that she believed
her marriage to Defendant is irretrievably broken
because:
[Defendant] is emotionally and verbally
abusive and that’s not going to change. He is
narcissistic. We tried marriage counseling.
And it’s clear to me that I’m not going to get
through to him.
And his personality is the way it is. And Pm
not going to keep putting myself in the situ­
ation I’ve been in. I’m done.
N.T., 11/27/18, at 18:19-19:2. Plaintiff testified that she
had “no doubt whatsoever” that she wanted a divorce.
N.T., 11/27/18, at 19:5-8. Plaintiff further testified
that she felt Defendant was emotionally, verbally, and
sexually abusive during the marriage. See N.T., 11/27
/18, at 23:2-24:22. Plaintiff also testified that Defend­
ant did not acknowledge her opinions and feelings
during the marriage. iSeeN.T., 11/27/18, at 25:7-26:15.
Plaintiff further testified that based on her religious
beliefs, she believed a divorce was warranted. N.T.,
11/27/18, at 29:11-31:16. Additionally, Plaintiff testi­
fied that she is not pursuing any economic claims
against Defendant. N.T, 11/27/18, at 19:12 14. Plain­
tiff also testified that she did not have an affair during
the marriage. N.T., 11/27/18, at 55:24-25.
Defendant is an Executive Director and Paramedic.
N.T., 11/27/18, at 14:19-15:1. Defendant testified exten­
sively about his religious beliefs and his belief that
divorce is not appropriate for the parties. See N.T.,
11/27/18, at 33:18-35:15, 35:23-36:20, 36:22-37:13,
38:5-39:13,39:21-41:20,42:23-47:13,47:15-50:13.

App.34a

Defendant testified that he did not believe the parties
had “biblical grounds for divorce or infidelity or an
unbelieving spouse walk away.” Sec N.T., 11/27/18, at
36:3-5. Defendant further argued that he and Plaintiff
entered into a Christian marriage contract, which
Pennsylvania cannot invalidate. N.T., 11/27/18, at 58:714. Defendant argued that Pennsylvania recognizes that
marriage is a religious contract and that Pennsylvania
gives deference to the religious aspects of marriage
contracts. N.T., 11/27/18, at 59:17-60:7, 60:14-61:20.
Defendant contends that the legislature does not
have the authority to regulate marriage and divorce,
especially no-fault divorce, because there is no com­
pelling state interest. N.T., 11/27/18, at 61:18-20,
61:23-64:15.
Defendant further testified that his “firmly held
religious beliefs prevented [him] from starting a
family under a marital contract that includes an exit
plan option of unilateral no-fault divorce.” N.T., 11/27/
18, at 64:5-8. Defendant also argued that Pennsylvania
courts do not have jurisdiction over the Christian
marriage contract between him and Plaintiff and
that Section 3301(d) fosters excessive governmental
entanglement with the free exercise of religion.
N.T., 11/27/18, at 64:23-65:21, 65:23-67:3. Defendant
further testified that he believed his church council
needs to determine if there is sufficient estrangement
between the parties, and issue some type of edict
stating that the marriage is beyond repair. N.T.,
11/27/18, at 68:10-22.
At the conclusion of Defendant’s testimony, Plain­
tiff stated that the statements made by Defendant were
“a huge example of abuse.” N.T., 11/27/18, at 70:10-21.

App.35a

Plaintiff testified that Defendant’s promises to change
did not sway her and that she still wants a divorce. Id.
Thereafter, the parties briefly discussed the econo­
mic issues related to the marriage. Plaintiff again
confirmed that she is willing to give up compensation
for jointly held marital assets in order to get the
divorce. N.T., 11/27/18, at 75:7-12. Plaintiff testified
that she is willing to sign over her interest in the
vacant lot at 1200 Nemeth Road, Coopersburg. N.T.,
11/27/18, at 79:11-16. Plaintiff further testified that
the value of Defendant’s vehicle and boat are approx­
imately $ 17,000 and the value of her vehicle is
approximately $ 2,500, but that she is not seeking any
contribution for the difference between the values of
the vehicles. N.T., 11/27/18, at 81:17-25. Plaintiff also
stated she is not seeking any contribution for the
difference between the parties’ bank accounts. N.T.,
11/27/18, at 82:17-22. All of Plaintiffs testimony was
contingent on the assurance that Defendant was not
seeking any contribution from her.
Defendant indicated that after the date of
separation, he paid off Plaintiffs student loans and
some of Plaintiffs attorney fees. N.T., 11/27/18, at
76:19-77:3. Defendant testified that he is “not asking
for money from her.” N.T., 11/27/18, at 86:3-8. Defend­
ant elaborated and said that he does not have an
economic claim in his favor, but that Plaintiff might.
N.T., 11/27/18, at 97:10-24.
At the conclusion of the hearing, the Master in
Divorce indicated his intention to enter a report and
recommendation in favor of granting the divorce. N.T.,
11/27/18, at 72:9-17, 88:17-89:13. The Master in Divorce
issued his report on December 6, 2018.

App.36a

III. Discussion
A. Exceptions to the Report of the Master in
Divorce
On December 24, 2018, Defendant filed Exceptions
to the Report of the Master in Divorce, from which the
following is taken verbatim:
1.

The Master committed an Error in Fact, when
finding that Defendant made a claim for
Equitable Distribution in his Answer to the
Complaint in Divorce, filed on March 1, 2018.
(“5. On March 1, 2018, Husband filed an
Answer to the Divorce Complaint, along with
his own claim for equitable distribution.”)

2.

The Master committed Error of Fact regard­
ing Husband’s “failure” to pursue discovery
and the filing of an inventory, as such was
actually irrelevant, Husband having trans­
ferred to Wife premarital assets and the
available assets of the marital estate.
Husband paid off Wife’s credit card debt
($22,646.00), all of Wife’s student loan
($36,002.80), put Wife’s name on Husband’s
pre-marital residence, and satisfied the loan
on a 2010 Dodge Grand Caravan ($12,491)
before transferring the vehicle title. The only
marital asset was a tract of ground entirely
encumbered.
(“16. . . . Husband at no time filed an Inven­
tory or engaged in substantial discovery.”
Husband provided an inventory to his former
attorney and did not in fact engage require

App.37a

information from Wife regarding the marital
assets)
3.

The Master committed Error of Fact regarding
statistical information, as this was the Wife’s
second marriage.
(“23. Neither party had been married prior
to the Instant marriage.” In fact, Wife was
married prior to the current marriage)

4.

The Master committed Error of Fact by find­
ing Wife’s “wishes” not to reconcile constitute
a finding that the marriage was irreconcilable
broken.
(“The problem with Husband’s testimony is
that Wife credibly and extremely forcefully
testified that she did not wish to reconcile

Def s Exceptions, Iff 1-4 Defendant also indicated that
he “challenges the statute based on subject-matter
jurisdiction!!,]” and articulated the following reasons
as to why the statute is unconstitutional:
1.

Pennsylvania constitution requires divorce to
be a judicial action, hut the statute does not
invoke judicial power. The statutes reduce
divorce to non-judicial administrative actions
(23 Pa. C. S. § 3103).

2.

Allegation in complaint makes no claim of
any legally protected right being violated, no
complaint of legal fault.

3.

Service of process is insufficient because the
statute eliminates the defendant’s right to

App.38a

contest the action, except to challenge the
statute itself.
4.

Wife lacks standing because no injury-in fact
has been pleaded.

5.

The divorce statute violates Pennsylvania
Constitution, Article 1, Section 17. on its face,
because it is a special/private law under
guise of general public law because it grants
to a private individual an exclusive privilege
and immunity to procure a divorce without
legal challenge.

Defs Exceptions, p.2, ]H[ 1-5. Defendant’s Exceptions
were filed without the benefit of the transcript. The
Notes of Testimony were not tiled until January 11,
2019.
In his first exception, Defendant contends that
the Master in Divorce committed an error in fact by
stating that Defendant made a claim for equitable
distribution. A review of the record reveals that
Defendant is correct. In her Complaint, Plaintiff made
a claim for equitable distribution in Count I. On
March 1, 2018, when Defendant filed his Answer, he
merely admitted or denied the allegations contained in
Plaintiffs claim for equitable distribution. See Defs
Ans. Defendant did not assert any counterclaims and
did not separately request equitable distribution of
the marital assets. Although the Master in Divorce’s
factual recitation is inaccurate, the detect is de
minimis. As such, Defendant’s first exception is
sustained to the extent that the findings of fact in the
December 6, 2018 Report of the Master in Divorce shall
be corrected to state “5. On March 1, 2018, Husband
tiled an Answer to the Divorce Complaint.”

App.39a

In his second exception, Defendant contends that
the Master in Divorce committed an error in fact
regarding his failure to file an inventory. Defendant
contends that whether or not he filed an inventory is
“irrelevant” because he transferred various assets to
Plaintiff and paid off some of her debt. A review of the
docket reveals that Defendant has not filed an
inventory of property owned by the parties. At the
time of the November 27, 2018 Hearing, the nature
and value of assets in the marital estate was relevant
to the resolution of this case because Plaintiff included
a claim for equitable distribution in her Complaint.
Without evidence of what items comprise the martial
estate, the Master in Divorce and this Court would be
unable to divide the assets. The Master in Divorce
accurately noted that Defendant failed to file an
inventory and engage in discovery with Plaintiff.
Therefore, Defendant’s second exception is meritless
and thus, overruled.
In his third exception, Defendant contends that
the Master in Divorce committed an error in fact by
stating that neither Plaintiff nor Defendant had pre­
viously been married. A review of the record reveals
that Defendant is correct. Plaintiff was previously
married. Her first marriage ended in divorce in 2008,
prior to the marriage of the parties in 2009. See N.T.,
1/27/18, at 15:2-10, 17:13-17. Although the Master in
Divorce’s factual recitation is inaccurate, the defect is
de minimis. As such, Defendant’s third exception is
sustained to the extent that the findings of fact in the
December 6, 2018 Report of the Master in Divorce
shall be corrected to state “23. Wife had been married
prior to the instant marriage. Wife’s first marriage
ended in divorce in 2008.”

App.40a

Finally, in his fourth exception, Defendant contends
that the Master in Divorce committed an error of fact
by determining that the marriage was irreconcilably
broken because Plaintiff “did not wish to reconcile.”
“[A] master’s report and recommendation, although
only advisory, is to be given the fullest consideration,
particularly on the question of credibility of witnesses,
because the master has the opportunity to observe
and assess the behavior and demeanor of the parties.”
Cook v. Cook, 186 A.3d 1015, 1026 (Pa. Super. 2018)
(quoting Moran v. Moran, 839 A.2d 1091, 1095 (Pa.
Super. 2003)). After a thorough review of the record,
this Court discerns no error with the Master in
Divorce’s determination that the parties’ marriage
was irretrievably broken. In relevant part, the Master
in Divorce considered and assessed the testimony of
Plaintiff and Defendant as follows:
The contested part of the case revolves around
[Plaintiffs] testimony that she desires to have
a divorce as soon as possible and that she
strongly believes that the marriage is irre­
trievably broken. However, [Defendant] force­
fully testified that he remains in love with
[Plaintiff] and believes the marriage is
salvageable. [Defendant] bases his belief on
the fact that the parties entered into what he
characterized as a “Christian marriage con­
tract” through their church and that the
marriage was “officiated” in a larger sense by
their joint belief in Jesus Christ and the
sanctity of any marriage established in such
a manner. Thus, [Defendant] argued that the
Commonwealth is intruding on a religious con­
tract made between the two of them and

App.41a

that the definition employed by the Divorce
Code as to ‘irretrievable breakdown’ is not
applicable to the parties’ situation in this
matter. On that basis [Defendant] strongly
objected to any recommendation for the entry
of a divorce decree.
The undersigned heard compelling testimony
from [Plaintiff] as to the issues which arose
in the parties’ marriage, including controlling
behavior by [Defendant], sexual coercion and
general state of unhappiness by [Plaintiff] as
the marriage progressed prior to separation.
[Defendant] seemed to indicate that he was
not aware that [Plaintiff] was unhappy and
offered a genuine response of compassion and
an attempt to change his behavior so that the
parties could perhaps reconcile. The problem
with [Defendant’s] testimony is that [Plain­
tiff] credibly and extremely forcefully testi­
fied that she did not wish to reconcile with
[Defendant] ever and that there is zero
prospect of this marriage being saved. Thus,
the parties have diametrically opposed view­
points as to the possibility of salvaging the
marriage itself
See Report of Master, p. 4.
“Irretrievable breakdown” is defined as “[estrange­
ment due to marital difficulties with no reasonable
prospect of reconciliation.” See 23 Pa. C.S. § 3103.
Here, Plaintiff stated multiple times that there is no
possibility that the marriage can be repaired and that
she does not want to be married to Defendant. Al­
though Defendant strongly disagreed with Plaintiffs

App.42a

position, it is precisely this breakdown in communica­
tion that satisfies the definition of “irretrievable
breakdown.” Reconciliation cannot happen without
the efforts of two willing participants. For the reasons
testified to by Plaintiff, she is absolutely unwilling to
reconcile and sees no way for the marriage to be
salvaged. This Court’s review of the record reveals that
there is no reasonable prospect of reconciliation
between Plaintiff and Defendant. The Master in
Divorce did not err in determining, based on Plaintiffs
“wishes”, that the marriage is irretrievably broken.
Therefore, Defendant’s fourth exception is overruled.
B. Motion for Summary Judgment
In his Motion for Summary Judgment, Defendant
contends that the Court of Common Pleas of Lehigh
County does not have subject-matter jurisdiction to
grant a divorce and that 23 Pa. C.S. § 3301 is uncon­
stitutional for various reasons. See Def.’s Mot. The
reasoning articulated in Defendant’s Motion for
Summary Judgment closely aligns with the five state­
ments challenging subject-matter jurisdiction that
Defendant articulated in his Exceptions to the Master’s
Report. As such, this Court will consider the argu­
ments together.
As an initial matter, Defendant purports to bring
his Motion for Summary Judgment pursuant to 25 Pa.
Code § 1021.94(a). Procedurally, this is deficient in sev­
eral respects. Section 1021.94 is entitled “Dispositive
motions other than summary judgment motions.” See
25 Pa. Code § 1024.94 (emphasis added). On its face,
Section 1021.94 does not authorize Defendant’s Motion
for Summary Judgment. Beyond this, Section 1021.94
is contained in that portion of the Pennsylvania Code

App.43a

which governs the practices and procedures applicable
in proceedings held before the Environmental Hearing
Board. See 25 Pa. Code § 1021.1-1021.201. The Env­
ironmental Hearing Board has nothing to do with the
granting or denying of divorces. As such, Defendant’s
reliance on 25 Pa. Code § 1021.94(a) is grossly mis­
placed.
The Court also notes that, under the Pennsylvania
Rules of Civil Procedure, Defendant’s Motion for Sum­
mary Judgment is poorly timed. Pennsylvania Rule of
Civil Procedure 1035.2 provides:
After the relevant pleadings are closed, but
within such time as not to unreasonably
delay trial, any party may move for summary
judgment in whole or in part as a matter of
law
(1) whenever there is no genuine issue of any
material fact as to a necessary element of the
cause of action or defense which could he
established by additional discovery or expert
report, or
(2) if, after the completion of discovery relevant
to the motion, including the production of
expert reports, an adverse party who will
bear the burden of proof at trial has failed to
produce evidence of facts essential to the
cause of action or defense which in a jury
trial would require the issues to be submitted
to a jury.
Pa. R.C.P. 1035.2. Here, the pleadings were closed on
March 1, 2018, when Defendant filed his Answer. Ten
months later, and almost two months after the fact
finder, the Master in Divorce, held the evidentiary

App.44a

hearing on Plaintiffs Complaint, Defendant filed his
Motion for Summary Judgment on January 18, 2019.
Procedurally, a Motion for Summary Judgment is
proper prior to the November 27, 2018 Hearing with
the Master in Divorce. Moreover, a motion for summary
judgment is only fitting where there is no genuine
issue of material fact. As explained in more detail
below, Plaintiff and Defendant vehemently disagree
over whether or not their marriage is irretrievably
broken, a fact which is material in a divorce action.
Turning now to the substance of Defendant’s
Motion for Summary Judgment, Defendant contends
that 23 Pa. C.S. § 3301 (c) and (d) are unconstitutional
and that this Court does not have jurisdiction to enter
a divorce decree. Defendant argues that Section 3301
is unconstitutional because it does not give rise to a
legal controversy, because it allows courts to act in an
arbitrary and capricious manner, and because it com­
pels the judge to act in a ministerial capacity. See
Def.’s Br., p. 9-24.
In relevant part, 23 Pa. C.S. § 3104, provides that
“[t]he courts shall have original jurisdiction in cases
of divorce. ...” Moreover, Pennsylvania Rule of Civil
Procedure 1920.2 provides that:
(a) [an action for divorce] may be brought only
in the county
(l) in which the plaintiff or the defendant resides,
or
(2) upon which the parties have agreed
(i)

in a writing which shall be attached to
the complaint, or by

(ii) participating in the proceeding.

App.45a

Pa. R.C.P. 1920.2(a). Here, Plaintiff brought the
action for divorce in the Lehigh County Court of
Common Pleas. Pursuant to Section 3104, this Court
has original jurisdiction over actions for divorce. At
the time Plaintiff filed her Complaint, both parties
resided in Macungie, Lehigh County, Pennsylvania.
As such, the requirements of Pa. R.C.P. 1920.2(a)(1)
were satisfied. Beyond that, however, the requirements
of Pa. R.C.P. 1920.2(a)(2)(ii) are satisfied because both
parties have participated in the proceedings in Lehigh
County and thereby, have consented to the propriety
of venue and jurisdiction in this Court.
Defendant also argues that only courts within the
City of Philadelphia and Allegheny County may adju­
dicate divorces. SeeDef.’s Br., p. 14. In support of his
contention, Defendant relies on the Sections 16 and
17 to the Schedule of the Judiciary Article of the
Pennsylvania Constitution. See Pa. Const., Art. V,
Sch., §§ 16 and 17. While Defendant is right to the
extent that. Sections 16 and 17 of the Schedule pertain
only to the City of Philadelphia and Allegheny County,
he misapprehends the purpose of those sections.
Section 4 of the Schedule sets out the general rule and
vests jurisdiction equally in the “several courts of
common pleas,” which include the Lehigh County
Court of Common Pleas. See Pa. Const., art. V, Sch.,
§ 4. Sections 16 and 17 of the Schedule serve as addi­
tions to the general rule and set forth with more
specificity the manner in which the courts in the City
of Philadelphia and Allegheny County divide their
authority. Nothing in Sections 16 and 17 of the
Schedule indicate that the City of Philadelphia or
Allegheny County have exclusive jurisdiction over

App.46a

divorces. For all of these reasons, Defendant’s argu­
ment that this Court lacks jurisdiction to grant a divorce
lacks merit.
At the root of Defendant’s Motion for Summary
Judgment is his contention that the term “irretrievably
broken” as used in the Divorce Code lacks meaning
and that a judge cannot make such a determination
because it is a “philosophical and theological question.”
See Def.’s Br., p.17. Defendant’s argument is inter­
mingled with his strongly held religious beliefs.
In his report, the Master in Divorce summarized
and resolved this conflict as follows:
It is the conclusion of the undersigned that
in fact [Plaintiff] has met her burden to prove
that the marriage is irretrievably broken
within the meaning of the Divorce Code.
[Defendant] seems to be arguing that the
definition of that term within the Divorce
Code is perhaps unconstitutional or otherwise
violates rights he may have. The undersigned
will rely upon the transcript from the Notes
of Testimony as to [Defendant’s] precise argu­
ments in that he made cogent and compelling
arguments regarding the possible interplay
between his religious beliefs and the Divorce
Code. However, it is the conclusion of the
undersigned that the process in place to
divorce parties within the jurisdiction of the
Commonwealth and this County is that the
Divorce Code represents a secular codification
of laws governing such individuals and that
the undersigned is bound to follow the statute
rather than a particular litigant’s set of
beliefs. It was explained to [Defendant] that

App.47a

in fact the undersigned divorces homosexual [ ]
couples, atheists, agnostics, Muslims, Jewish
litigants and parties covering a broad spec­
trum of other belief systems. As such, one
party’s religious beliefs and beliefs regarding
jurisdiction of a Court to address divorce
involving such a person cannot trump the
Divorce Code itself, which applies to all
parties under its jurisdiction. Therefore, while
a sad case, the undersigned is constrained to
recommend entry of a divorce decree based
upon the establishment of grounds for divorce
under Section 3301(d) of the Pennsylvania
Divorce Code permitting a divorce once the
parties have established a two (2) year sepa­
ration and irretrievable breakdown of their
marriage. That has occurred in this matter
and the parties should be divorced as soon as
administratively possible without any fur­
ther economic relief to be granted.
Rpt. of Master, p. 5—6. This Court concludes that the
Master in Divorce did not err, hut rather was correct
in his reasoning.
As noted above, the Divorce Code defines “irre­
trievable breakdown” as [estrangement due to marital
difficulties with no reasonable prospect of reconcili­
ation.” See 23 Pa. C.S. § 3103. Estrangement means
“Wo destroy or divert affection, trust, and loyalty.”
See Black’s Law Dictionary, estrange, defn no. 2
(10th ed. 2014). Reasonable means “[flair, proper, or
moderate under the circumstances; sensible.” Id.,
reasonable, defn no. 1. In the familial context,
reconciliation means a “[vjoluntary resumption, after
a separation, of full marital relations between spouses.”

App.48a

Id., reconciliation, defn no. 2. While “irretrievable
breakdown” is a term of art which is not vague; the
use of the phrase does not lead to arbitrary outcomes.
Here, Plaintiff stated multiple times that there is
no possibility that the marriage can be repaired and
that she does not want to be married to Defendant.
Although Defendant strongly disagreed with Plaintiffs
position, it is precisely this breakdown in communica­
tion that satisfies the definition of “irretrievable
breakdown.” By definition, a reconciliation cannot
happen without the voluntary efforts of two willing
participants. For the reasons testified to by Plaintiff,
she is absolutely unwilling to reconcile and sees no
way for the marriage to be salvaged. Plaintiff testified
that she believes Defendant is emotionally abusive.
Plaintiff clearly lacks trust in Defendant and their
marriage. This Court’s review of the record reveals
that there is no reasonable prospect of reconciliation
between Plaintiff and Defendant. Plaintiffs position
has not waivered in the more than two years that have
elapsed since the parties began living separately in
November 2016. Plaintiff has established that there is
a significant break in the marital relationship and
that her marriage to Defendant is beyond repair.
As a final point, the Superior Court of Pennsyl­
vania has previously determined that the sections of
the Divorce Code relating to no-fault divorce and
irretrievable breakdown of the marriage do not violate
a person’s freedom of religion. See Wilkoski v.
Wilkoski, 513 A.2d 986 (Pa. Super. 1986). In Wilkoski,
the Superior Court distinguished between the civil
and religious components of a marriage and deter­
mined that the Commonwealth of Pennsylvania had a
paramount interest in regulating marriage and divorce.

App.49a

Wilkoski, 513 A.2d at 986-89. In reaching its’ decision,
the Superior Court, quoted an Oklahoma Court which
explained that “the action of the trial court only
dissolved the civil contract of marriage between the
parties. No attempt was made to dissolve it eccle­
siastically. Therefore, there is no infringement upon
[wife’s’ constitutional right of freedom of religion. She
still has her constitutional prerogative to believe that
in the eyes of God, she and her estranged husband are
ecclesiastically wedded as one....” Wilkoski, 513 A.2d
at 987 (quoting Williams v. Williams, 543 P.2d 1401
(Okla. 1975)). So too, in this case—Defendant is free
to believe that he and Plaintiff remain ecclesiastically
married. Nevertheless, based upon the record before
this Court, Plaintiff has established grounds for
divorce under the Divorce Code.
IV. Conclusion
For the foregoing reasons, the Exceptions to the
Report of the Master in Divorce are denied in part and
overruled in part, the Motion for Summary Judgment
and Brief in Support is denied, and Plaintiff, Laura
Pankoe, and Defendant, Ryan Pankoe, are divorced
from the bonds of matrimony. A Divorce Decree and
an appropriate Order of this same date accompany.
BY THE COURT:
/si Michele A. Varricchio
Judge
Date: March 25th, 2019

App.50a
ORDER OF THE DIVORCE DECREE OF
THE COURT OF COMMON PLEAS
OF LEHIGH COUNTY
(MARCH 25, 2019)
IN THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
CIVIL DIVISION
LAURA PANKOE,
Plaintiff,
v.
RYAN PANKOE,
Defendant.
No. 2017-FC-1286
DIVORCE
Before: The Hon. Michele A. VARRICCHIO, J.
AND NOW, this 25th day of March, 2019 upon
consideration of the Report of the Master in Divorce,
and in accordance with the Memorandum Opinion
and Order entered this same date, it is HEREBY
ORDERED AND DECREED that Laura Pankoe,
Plaintiff, and Ryan Pankoe, Defendant, are divorced
from the bonds of matrimony.
IT IS FURTHER ORDERED that, to the extent
either party raised a claim for equitable division of

App.51a

marital assets and liabilities, said claims arc resolved
by each party waiving any and all claims he or she
may have against the other pertaining to property in
the possession of the other party and/or titled in the
other party’s name. Each party shall indemnify and
hold harmless the other from payment or all debts
titled in his or her name. All claims for cred it or
reimbursement raised by either party are DENIED.
The Court retains jurisdiction of any claims
raised by the parties to this action for which a Final
order has not yet been entered.
BY THE COURT:
/s/ Michele A. Varricchio
Judge

App.52a
ORDER OF THE COURT OF
COMMON PLEAS OF LEHIGH COUNTY
(MARCH 25, 2019)
IN THE COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
CIVIL DIVISION
LAURA PANKOE,
Plaintiff,
v.
RYAN PANKOE,
Defendant.
No. 2017-FC-1286
DIVORCE
Before: The Hon. Michele A. VARRICCHIO, J.
AND NOW, this 25th day of March, 2019, in
accordance with the Memorandum Opinion and
Divorce Decree entered this same date,
IT IS HEREBY ORDERED that the Exceptions
to the Report of the Master in Divorce filed December
24, 2018, by Defendant, Ryan Pankoe, are SUS­
TAINED in part and OVERRULED in part as follows:
1.

Defendant’s first and third exceptions are
SUSTAINED to the extent that the findings
of fact in the December 6, 2018 Report of the

App.53a

Master in Divorce shall be corrected to state:
“5. On March 1, 2018, Husband filed an
Answer to the Divorce Complaint.” and “23.
Wife had been married prior to the instant
marriage. Wife’s first marriage ended in
divorce in 2008.”
2.

Defendant’s second and fourth exceptions
are OVERRULED.

IT IS FURTHER ORDERED that the Motion for
Summary Judgment and Brief in Support filed
January 18, 2019 by Defendant, Ryan Pankoe, is
DENIED.

BY THE COURT:
Is/ Michele A. Varricchio
Judge

App.54a
ORDER OF THE
SUPERIOR COURT OF PENNSYLVANIA
DENYING REQUEST FOR REARGUMENT
(JANUARY 7, 2020)
IN THE SUPERIOR COURT OF PENNSYLVANIA
EASTERN DISTRICT
LAURA PANKOE,
v.
RYAN PANKOE,
Appellant.
No. 1041 EDA 2019
IT IS HEREBY ORDERED:
THAT the application filed November 12, 2019,
requesting reargument of the decision dated October
29, 2019, is DENIED.
PER CURIAM

App.55a

RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
Constitutional Provisions
U.S. Const, amend. I
Congress shall make no law respecting an establish­
ment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
U.S. Const, amend. XIV, § 1
All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they
reside. No State shall make or enforce any law
which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property,
without due process of law; nor deny to any per­
son within its jurisdiction the equal protection of
the laws.
Penn. Constitution Article III, § 321
The General Assembly shall pass no local or
special law in any case which has been or can be
provided for by general law and specifically the

1 Penn. Const. Art. Ill, Sec. 7 (1874) specifically enumerated
“Granting Divorces.”

App.56a

General Assembly shall not pass any local or
special law:
1.

Regulating the affairs of counties, cities,
townships, wards, boroughs or school districts.

2.

Vacating roads, town plats, streets or alleys.

3.

Locating or changing county seats, erecting
new counties or changing county lines.

4.

Erecting new townships or boroughs, changing
township lines, borough limits or school dis­
tricts.

5.

Remitting fines, penalties and forfeitures, or
refunding moneys legally paid into the treas­
ury.

6.

Exempting property from taxation.

7.

Regulating labor, trade, mining or manufac­
turing.

8.

Creating corporations, or amending, renewing
or extending the charters thereof.

Nor shall the General Assembly indirectly enact
any special or local law by the partial repeal of a
general law; but laws repealing local or special
acts may be passed.

Statutory Provision
Pennsylvania Divorce Code, 23 Pa. C.S. § 3301(d)
(d) Irretrievable breakdown
(l) The court may grant a divorce where a com­
plaint has been filed alleging that the marriage is
irretrievably broken and an affidavit has been

App.57a

filed alleging that the parties have lived separate
and apart for a period of at least two years2 and
that the marriage is irretrievably broken and the
defendant either:
(1)

Does not deny the allegations set forth in the
affidavit.

(ii) Denies one or more of the allegations set forth
in the affidavit but, after notice and hearing,
the court determines that the parties have
lived separate and apart for a period of at
least one year and that the marriage is
irretrievably broken.
(2) If a hearing has been held pursuant to para­
graph (l)(ii) and the court determines that there
is a reasonable prospect of reconciliation, then the
court shall continue the matter for a period not
less than 90 days nor more than 120 days unless
the parties agree to a period in excess of 120 days.
During this period, the court shall require
counseling as provided in section 3302 (relating
to counseling). If the parties have not reconciled
at the expiration of the time period and one party
states under oath that the marriage is irretrievably
broken, the court shall determine whether the
marriage is irretrievably broken. If the court
determines that the marriage is irretrievably
broken, the court shall grant the divorce. Other­
wise, the court shall deny the divorce.

2 At the time the petition for divorce was filed, a two-year sepa­
ration was required. The legislation has since been changed to
one-year.

Blank Page

SUPREME COURT
PRESS

